<html>
<title> - AMTRAK'S CAPITAL NEEDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         AMTRAK'S CAPITAL NEEDS

=======================================================================

                                (110-56)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

             RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 11, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                     U.S. GOVERNMENT PRINTING OFFICE

36-687 PDF               WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

?

     SUBCOMMITTEE ON RAILROADS, PIPELINES, AND HAZARDOUS MATERIALS

                   CORRINE BROWN, Florida Chairwoman

JERROLD NADLER, New York             BILL SHUSTER, Pennylvania
LEONARD L. BOSWELL, Iowa             THOMAS E. PETRI, Wisconsin
JULIA CARSON, Indiana                WAYNE T. GILCHREST, Maryland
GRACE F. NAPOLITANO, California      STEVEN C. LaTOURETTE, Ohio
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               GARY G. MILLER, California
BRUCE L. BRALEY, Iowa                HENRY E. BROWN, Jr., South 
TIMOTHY J. WALZ, Minnesota           Carolina
NICK J. RAHALL II, West Virginia     TIMOTHY V. JOHNSON, Illinois
PETER A. DeFAZIO, Oregon             TODD RUSSELL PLATTS, Pennsylvania
JERRY F. COSTELLO, Illinois          SAM GRAVES, Missouri
EDDIE BERNICE JOHNSON, Texas         JIM GERLACH, Pennsylvania
ELIJAH E. CUMMINGS, Maryland         MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            LYNN A. WESTMORELND, Georgia
DANIEL LIPINSKI, Illinois            JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (ex officio)
  (ex officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Kummant, Alexander, President and Chief Executive Officer, 
  National Railroad Passenger Corporation........................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Brown, Hon. Corrine, of Florida..................................    29
Costello, Hon. Jerry F., of Illinois.............................    35
Oberstar, Hon. James L., of Minnesota............................    36
Rahall, Hon. Nick J., of West Virginia...........................    40
Shuster, Hon. Bill, of Pennsylvania..............................    41

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Kummant, Alexander...............................................    44
[GRAPHIC] [TIFF OMITTED] 36687.001

[GRAPHIC] [TIFF OMITTED] 36687.002

[GRAPHIC] [TIFF OMITTED] 36687.003

[GRAPHIC] [TIFF OMITTED] 36687.004

[GRAPHIC] [TIFF OMITTED] 36687.005

[GRAPHIC] [TIFF OMITTED] 36687.006

[GRAPHIC] [TIFF OMITTED] 36687.007

[GRAPHIC] [TIFF OMITTED] 36687.008

[GRAPHIC] [TIFF OMITTED] 36687.009



                    HEARING ON AMTRAK CAPITAL NEEDS

                              ----------                              


                        Wednesday, July 11, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
       Subcommittee on Railroads, Pipelines, and Hazardous 
                                                 Materials,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Corrine 
Brown of Florida [chairwoman of the subcommittee] presiding.
    Ms. Brown of Florida. The Subcommittee on Railroads, 
Pipelines, and Hazardous Materials will come to order. The 
Subcommittee is meeting today to hear testimony on Amtrak's 
capital needs. This is our third hearing on Amtrak as we 
prepare to develop a long-term reauthorization bill.
    Amtrak serves nearly 25 million riders annually at more 
than 500 stations in 46 States on approximately 22,000 route 
miles. Amtrak directly owns or operates 730 route miles, 
primarily between Washington, D.C. and Massachusetts on the 
Northeast Corridor, and in the State of Michigan; several 
station facilities including Penn Station in New York, Chicago 
Union Station, and several major maintenance and repair 
facilities. The rest of Amtrak's operations are on tracks owned 
by the freight railroads and some on commercial railroads.
    In 2005, Amtrak completed a comprehensive catalog of its 
capital needs, which showed a $4.2 billion backlog of 
investment to bring its infrastructure system to a state of 
good repair. With the backlog of major bridge and tunnel work, 
the backlog approaches an estimated $6 billion.
    Even with adequate funding, resources, and additional 
equipment, Amtrak estimates the backlog of work will take a 
minimum of 10 years to complete in order to maintain a reliable 
level of rail service.
    However, this estimate does not include service 
enhancements to improve on-time performance or increase train 
speeds. Addressing these concerns is important and necessary if 
Amtrak wants to improve service and grow its ridership for the 
future. But we cannot get to the future unless Amtrak is able 
to meet its current capital needs. I know for a fact that some 
of their major infrastructure projects are desperately needed 
to improve the safety and security of the system, such as the 
fire and life safety improvements to the tunnels in New York, 
Baltimore, and Washington, D.C. I can't say it often enough 
that passenger rail is a prime target of terrorists and we 
haven't prepared the way other countries have.
    As I have said over and over again, other countries 
continue to invest billions and billions of dollars each year 
into their passenger rail system, while the United States 
continues to fall further and further and further behind. We 
enter into an annual debate in Congress, each time the 
transportation appropriation bills come to the floor, on 
whether it is wise to invest $1 billion in our Nation's 
passenger rail, while other countries that are much, much 
smaller than the United States are spending five to ten times 
what we are spending for passenger rail on an annual basis. We 
need to make a real commitment to Amtrak in this 
reauthorization bill.
    I want to thank Mr. Kummant for joining us again to discuss 
Amtrak's capital needs.
    Before I recognize Mr. Shuster for his opening statement, I 
ask unanimous consent to allow 14 days for all members to 
revise and extend their remarks, and to permit the submission 
of additional statements and materials by members and 
witnesses. Without objection, so ordered.
    Mr. Shuster.
    Mr. Shuster. Thank you, Madam Chairwoman. I want to thank 
you for holding today's hearing. It is a good follow-up to the 
last hearing we had on the benefits of the inner city rail to 
this Nation.
    I also want to welcome and thank Mr. Kummant for being here 
today and for testifying on behalf of Amtrak.
    At the previous hearing I alluded to we heard testimony 
about how trains can cut pollution, reduce highway congestion, 
and provide a real alternative to driving our automobiles. But 
we didn't hear much about the cost of what it would take to 
upgrade the system and building a high speed rail system. We 
know it is not going to be cheap, but this is an investment 
that I believe will pay huge dividends in the future.
    The State of Pennsylvania and Amtrak recently upgraded the 
Keystone corridor, which those trains are traveling at about 
110 miles an hour, and already we are seeing big results, 
positive results: increased ridership, better on-time 
performance, and better reliability. But there is still much to 
be done. For example, I read that on the Keystone the power 
transformers are 70 years old. Those transformers should 
probably be in a museum, but we are still relying on them to 
provide power on the Keystone.
    Our grandparents, our forefathers, built this Nation's 
railroads, and I think it is important, part of our legacy of 
this generation to build fast, efficient, high speed rail 
system. So, with that, I am looking forward to the testimony 
today. I appreciate your being here, and I yield back.
    Ms. Brown of Florida. Mr. Mica?
    Mr. Mica. Thank you.
    First of all, I think this is an important hearing, and I 
appreciate the Chair and the Ranking Member calling together 
this important review of Amtrak's capital needs.
    I have been termed in some quarters as a critic of Amtrak, 
but I think that most people who have the opportunity to sit 
down with me and talk to me understand that I am one of the 
leading advocates of passenger rail service in the United 
States Congress, both for long distance service and also for 
high speed service, and a strong advocate of public 
transportation.
    I have spent some time since I got, last night or yesterday 
afternoon, the information provided by Amtrak and look forward 
to reviewing some of their estimates and guess estimates on 
what it would take to meet their capital needs. However, as we 
know, they have had some problems, both from management and an 
operational standpoint and both with construction of high speed 
corridor in the United States, the only one that we have that 
even resembles high speed, which is the Acela in the Northeast 
Corridor operations.
    I have reviewed again the amount of money that they 
requested. They are estimating a capital backlog of $5 billion. 
We have a maintenance backlog of some $5 billion to $6 billion 
estimate, probably, and we also, according to the information 
given to us by Amtrak, have potential long-term needs for 
improving the high speed corridor that we have now, the 
Northeast Corridor, somewhere around $10 billion to $12 
billion, according to their estimates. I think they are looking 
at a guess estimate of about $10 billion to improve bridges and 
tunnels. I think there are $680 million, approximately, to 
improve the catenary for the Northeast Corridor.
    However, I think there are larger questions that loom about 
Amtrak's capital needs, and that is how much of this effort 
Amtrak undertakes itself, as far as replacement of rolling 
stock, and how much they undertake as far as improvement and 
development of a truly high speed corridor. Unfortunately, in 
the last area I mentioned, the record there has been rather 
rough. The Acela acquisition was mired in legal contention. We 
ended up getting equipment that is not, for various technical 
reasons, capable of high speed, the design flaws one of those 
factors. We bought equipment for which we didn't have spare 
parts or the different changes and specifications in the 
acquisition of equipment that also have caused problems.
    Additionally, it is not just a question of how much money 
we give Amtrak, it is how they spend it. As we have seen 
through a couple of studies and reports that I have requested, 
one was food service, where about a quarter of a billion 
dollars over a several year period in additional cost was 
consumed. In fact, for every dollar spent on Amtrak food by a 
passenger, it costs the taxpayers, according to that report, 
two dollars. We had, again, the brake issue, which closed down 
the Northeast Corridor for nearly some six months, not having 
adequate equipment. And, of late, one of the investigations 
that I asked to be conducted reviewed legal expenditures and 
found serious problems with the way legal contracting work was 
conducted by Amtrak. So it is not always how much money we give 
them, it is how they spend it.
    Now, I will say that Mr. Gunn and Mr. Kummant have made 
some changes. I am anxious to hear from them today and am 
willing to work with them. But let me just say to them that 
unless somebody has been in a coma the last decade, they would 
never conclude that Amtrak has either the management capability 
or the technical capacity to develop, to construct, or operate 
a truly high speed rail corridor. Even elementary mathematics 
of the Senate Amtrak bailout plan of $2 billion a year for four 
years barely covers the backlog of $5 billion in maintenance 
that is required that I mentioned, an operating loss that now 
exceeds half a billion dollars a year, and interest payments of 
almost a quarter of a billion dollars a year. Just do the math, 
and it doesn't work.
    That makes Amtrak's plan for development of the Northeast 
Corridor as a truly high speed system a pipe dream, at best. 
Testimony provided to us by Amtrak states that $625 million in 
catenary and other improvements achieves a D.C.-New York 
average speed of 90 miles per hour. However, as you will see in 
the information they are providing us also, another $10 billion 
in tunnels and bridges gets us to 96.6 miles per hour, also not 
a high speed rail system. We end up with an average speed of 
less than 97 miles per hour and a corridor congested with 1700 
daily commuter trains, plus freights and slow long-distance 
service trains all operating in the same congested corridor.
    The capital plan presented today by Amtrak unfortunately 
continues the status quo. It fails in improving high speed 
service and puts another band aid on the hemorrhaging vital 
northeast rail and transportation corridor.
    I think that, in closing--I appreciate your giving me a few 
moments--while I have been critical, I think we need to be 
supportive of a true Amtrak capital needs program. The first 
thing that we need to do is to develop a high speed corridor 
somewhere in the United States and, of course, I would favor 
the Northeast Corridor since it has such an incredible 
potential ridership and also lends itself to dealing with one 
of our Nation's most congested transportation corridors and 
would provide a viable alternative to move people as an 
alternative to airports and congested highways. That is going 
to take--and we have heard this repeated before this Committee 
before--a separation of traffic, and to get truly high speed, 
we are looking at 120 to 150 miles an hour minimum, absolute 
minimum. To truly separate that traffic and have high speed 
service, we are looking at, my guesstimate is $100 million per 
mile, which is $22.5 billion to develop that corridors, plus 
the bridges and tunnels, which have been cited here that give 
us some additional speed in the system but don't do the job, 
which could be as much as $10 billion, Amtrak's guesstimate 
that they are presenting today.
    So I would support an investment of $32.5 billion for the 
corridor, separate the traffic. That would also give us a model 
something like this. I don't know if you can see it. We 
probably should put it on the screen.
    Madam Chairman, I will present you with one of these for 
the record.
    But that would give us a separated high speed corridor, 
truly separated, that would run probably on an elevated system. 
Someone would have to make a decision whether it is steel rail 
vehicle, as they use with Shinkansen, TGV-ICE and some of the 
other systems, and/or maglev, which would be the latest 
technology that they use in Shanghai from the airport to 
downtown. So this would be the model I propose. It has got a 
pretty busy and high price tag, but it could be done, and this 
is the kind of capital expenditure I think we need to make a 
truly high speed corridor.
    Thirty-two billion dollars is not pie in the sky; it can be 
paid for. The current traffic on this route is about 9.4 
million passengers per year. It could easily increase to 24 to 
36 million passengers per year, which amortized over a 30 to 40 
year period would make this project feasible and financible 
with a little bit of Federal assistance, but most private 
backing. Then we would need someone first to separate out and 
operate the system, and then the most important component, of 
course, is developing the system and financing the system.
    So that can be done. This isn't a pipe dream, as I said, 
and I wanted to take this opportunity, while Amtrak is 
presenting a capital plan, to show not only what they are 
proposing, but what I think can be a reality and give this 
Country at least one corridor with a true high speed rail 
service.
    Thank you. I yield back.
    Ms. Brown of Florida. Thank you, Mr. Mica.
    Now I yield to the Chairman of the Committee, Mr. Oberstar, 
who is a real supporter of Amtrak.
    Mr. Oberstar. Thank you, Madam Chair. Thank you for holding 
this hearing and for the work you have invested on this issue. 
Mr. Shuster as well, the Ranking Republican on the 
Subcommittee. He is a strong passenger rail, freight rail 
advocate.
    I listened with great interest to the words of our Ranking 
Full Committee Member, Mr. Mica, who has set forth some very 
ambitious thoughts and is willing to work forward in a very 
strong and well-financed initiative for passenger rail service. 
How we get there is a matter of discussion, but that we get 
there I think is a matter that no one can or should dispute any 
longer.
    In the summer of 1944, in the early days of France's 
liberation from her German occupiers, time needed to travel 
from Paris to outlying regions of France was measured in days, 
not hours. Half of the country's 40,000 kilometers of rail were 
destroyed. What remained was pounded into fragments by bombing 
by both the Nazis and the allies. A third of the major train 
stations had been destroyed. Five-sixths of the locomotives 
were gone, either taken by the Germans for use in Germany or 
destroyed in the war effort. Seventy-five hundred bridges were 
destroyed. The road system in France was rutted. The most 
dependable trucks were U.S. Army vehicles. France was in 
shambles.
    Under our post-war effort, the United States, in the even 
pre-Marshall Plan, shipped 1,000 steam locomotives to France to 
help rebuild that country's rail system beginning in November 
1945. But 36 years later, the first TGV rolled out at 345 
kilometers an hour. Today, the TGV operates at an average 185 
miles an hour.
    I traveled to graduate studies in Belgium in 1956, from 
Paris to Brussels, on a train that took six hours. In April of 
this year we did that same trip in reverse, from Brussels to 
Paris, in 80 minutes. Ms. Brown was on board. We experienced 
exhilaration of travel in a corridor that now has no air 
service because the train service is so good. Passenger trains 
operating at 185 miles an hour with 1100 passengers on board 
depart every three minutes from Brussels Station for Paris. 
People commute between those two major metropolitan areas, the 
capital of Europe and the capital of France.
    We can do that in the United States. Mr. Mica has laid out 
a vision. Ms. Brown has laid out an advocacy. Mr. Nadler and I, 
in March of this year, traveled to an Amtrak conference in 
Philadelphia; lots of enthusiasm, lots of excitement. But I 
have to say that the situation I described in France at the end 
of World War II was not unlike the United States in 1970. When 
Amtrak was created in 1970, the Congress relieved the freight 
railroads of ``all responsibilities as common carriers of 
passengers by rail.'' The freight railroads were begging the 
Congress to let them get out of rail passenger service.
    I remember the discontinuances that the railroads applied 
for in cahoots with the U.S. Post Office. They wanted to take 
the RPO, the Railway Post Office overnight delivery service, 
off the passenger rails so then the passenger part would become 
unprofitable and they could then apply for discontinuance; and 
they did, one after another, until there was a fragment left of 
rail passenger service. And then they handed it to Congress and 
said, here, this is your responsibility, America.
    The Committee report on the Rail Passenger Service Act of 
1970 said the railroads have been downgrading service in the 
deliberate attempt to support elimination of passenger trains. 
That was an understatement. It was a scheme. There were 20,000 
passenger trains operating in the United States in 1929. But by 
the end of World War II, just like France, 9,000 of those had 
been eliminated. When we began work in the Congress on Amtrak--
I served here on the staff at the time--there were fewer than 
500 trains, and 100 of those were engaged in discontinuance 
proceedings.
    That is the bundle that was dumped in Amtrak's lap, this 
kaleidoscopic patchwork quilt mess of deterioration of service, 
and said, okay, here, you run passenger service and, oh, by the 
way, you are going to run it over freight rails, over 
antiquated equipment, with no new locomotives, no new service, 
and a minimal investment. And since then Amtrak has literally 
been on life support for its capital needs. That has to come to 
an end.
    Amtrak can operate. It can be a first-class, world-class 
passenger rail service. As Mr. Mica said, $36 billion, whatever 
it takes, we need to do that. We need to make that capital 
investment in the Northeast Corridor, in the upper Midwest, in 
the corridor from Chicago down to New Orleans, in what used to 
be the Empire builder corridor along the northern border, and 
in California, where 5 million people use Amtrak a year. 
Twenty-five million people a year use Amtrak. We need to get 
there.
    And I believe, Mr. Kummant, that, in our various 
conversations, you have the will to do this. You have a good 
sense of where we need to go. You understand the capital 
investment that is needed. I think we need a different 
management structure. We probably ought to change the oversight 
board, management board of Amtrak and free the operating side, 
those who are running the system, you and your associates, and 
give you the money that you need to do and set you on course to 
make those improvements. We can do it in America. We need to do 
that, and that is the purpose of this hearing.
    Thank you, Madam Chair. Enough preaching from the pulpit 
here. Time to listen to Amtrak.
    Ms. Brown of Florida. Mr. Chairman, you forgot one thing. 
You didn't mention Florida in that long list.
    [Laughter.]
    Ms. Brown of Florida. I just want to be included in every 
thought about----
    Mr. Oberstar. Northeast to Southeast Corridor. I ask 
unanimous consent to revise and extend my remarks.
    Ms. Brown of Florida. Mr. Nadler.
    Mr. Nadler. Thank you. I will speak very briefly. I have 
only two comments to make. One, Florida is over all this and, 
second, a very brief comment. The distinguished Chairman of the 
full Committee mentioned $36 billion a moment ago. That is a 
very daunting figure. And to have a proper transportation 
system in this Country will be a lot of money, will require a 
lot of money. We look at figures of $36 billion or $20 billion 
or $40 billion and, my God, where are we going to get that kind 
of capital investment?
    I would just point out to everyone that we have just, as of 
now, thrown $450 billion totally wasted, totally useless into a 
stupid drainpipe in Iraq. If we had, instead of committing the 
colossal stupidity of invading Iraq, spent that $450 billion on 
building up this Country, where would we be?
    I yield back.
    Ms. Brown of Florida. Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Madam Chairman. My 
main statement this morning is, as we watch the demographic 
changes of the United States, we certainly need to be cognizant 
of that as we look for long-range planning in our 
infrastructure, particularly the rail infrastructure, and also, 
I guess, transportation across the board. But as we look at the 
eastern seaboard, which is going to be the growth corridor for 
the 21st century, and we need to be proactive in establishing 
that infrastructure as the needs are there, but try to even 
advance ahead of the needs. So I would just add that you 
certainly look at that and to be sure that every 10 years, when 
the census has been resubmitted, you will see the demographics 
changes, that population shift, and we need to be cognizant of 
that.
    I yield back, Madam Chair.
    Ms. Brown of Florida. Thank you, Mr. Brown, and I do get 
your message that we need to include a different area of the 
east coast.
    I want to welcome our sole witness for today, Mr. Alexander 
Kummant, who is the President and Chief Executive Officer of 
Amtrak. Usually, we limit oral statements to five minutes, but 
you have asked for additional time. My paper says we are going 
to give you seven to eight minutes. That is not what we are 
going to give you. We are going to give you as much time as you 
may need, and you can submit your written statement and it will 
appear in the record, because we really want to hear what you 
have to say; we have been waiting. Thank you very much.

 TESTIMONY OF ALEXANDER KUMMANT, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, NATIONAL RAILROAD PASSENGER CORPORATION

    Mr. Kummant. Madam Chairwoman, members of the Committee, 
thank you so much for the opportunity and for taking the time 
on this important topic. I will, nevertheless, try to move 
quickly. Many of my slides up front here you all have a very 
good understanding of. In fact, much of what has been 
articulated here in the first minutes, this is a restatement.
    [Slide shown.]
    Mr. Kummant. Again, an overview of Amtrak: 21,000 route 
miles. Clearly, as we have talked here quite a bit, the key 
property is the Northeast Corridor, 457 miles in total length, 
363 miles of that is actually Amtrak property. And, of course, 
the facilities piece is not small. We will talk about that in a 
little bit. Just as a placeholder, remember it is out there, 
that is about $2 billion worth of property. And the point that 
I will come to at the end that is very important to us is 
equipment overall, and the need we will address in terms of 
beginning a new procurement cycle to replace much of our 
equipment.
    [Slide shown.]
    Mr. Kummant. Here again is the map that you are all very 
well familiar with, essentially, Boston to Washington, the 
Metro North piece between New Rochelle and New Haven, which is 
not Amtrak property.
    [Slide shown.]
    Mr. Kummant. A few other overall facts. Again, this has 
been well articulated here, the complexity of this. Nineteen 
hundred train movements a day, 8 commuter railroads or again, 
as was pointed out, one of the real complexities in every 
contemplating fundamentally changing the velocity or type of 
service on the corridor; and 50 freight trains, as well, use 
the corridor. Parenthetically, I might note that some of this 
structure in terms of how the line is laid out, not the track 
obviously, goes back to pre-1850s, so there is very substantial 
complexity here.
    [Slide shown.]
    Mr. Kummant. Here is another snapshot of looking at the 
number of daily trains by commuters. Gives you a sense of how 
complicated and how many different stakeholders are involved in 
the Northeast Corridor. Penn Station, again, specifically, has 
over 500,000 commuters a day all in, including Amtrak 
passengers, passing through that station, which is more than 
all the New York airports combined on a daily basis, with 1200 
train movements alone around Penn Station; 10 million Amtrak 
passengers. And, again, this has all been constructed in strong 
partnership with the Northeast Corridor States, with 
significant capital from the States as well.
    [Slide shown.]
    Mr. Kummant. A quick comment and the point really on high 
speed is well taken. What might it take? Very daunting. Quick 
answer why have we never advanced that? And quite right, we are 
not configured to even begin discussing, as Amtrak, with our 
current engineering structure, our own project management 
structure, Amtrak itself could certainly not manage a $30 
billion project.
    [Slide shown.]
    Mr. Kummant. But why is the Northeast Corridor today not a 
true high speed corridor as in 200 mile an hour plus? It is 
exactly as has been articulated: it is not a dedicated high 
speed passenger right-of-way. Eight commuter railroads, 
multiple traffic types, curvature issues, numerous stops. The 
whole history of the Northeast Corridor is in fact to serve all 
the communities along the way, without making choices of long 
end-point travel. So that is, of course, the complexity. And as 
you all well know, the European TGV style lines have been 
engineered from the beginning and dedicated to high speed type 
of service at a cost of $20 million to $25 million per mile.
    Again, in our sense, the $10 billion number is simply a 
crude calculation but does not really include any engineering 
constructability issues, nor does it include any real estate 
components. So our point is that it certainly goes well beyond 
the scope of anything Amtrak has ever contemplated, as was well 
noted. We talk in terms of low single digit billions. And, 
again, the numbers here on comparable European systems, they 
are all high multiple billions, obviously.
    [Slide shown.]
    Mr. Kummant. Going forward, this is a snapshot of what a 
reasonable, ongoing capital plan may look like in the coming 
years. And I will break these pieces out as we come. In a 
moment here, I will talk about the infrastructure piece, the 
standard, ongoing, every year replacement on the Northeast 
Corridor is about $350 million. The legacy costs--and I will 
break those down in a moment; and it is a question of how you 
annualize that--that represents basically an ongoing state of 
repair working down over 10 years and major legacy projects 
being worked down over 15-plus years. Rolling stock is a 
separate topic I will touch at the end of this presentation, 
where really beginning to replace all of our rolling stock over 
the next 10 or 15 years, again, begins to look something like 
that on an annual basis. The other big pieces are capacity and 
corridor development with the States, really some of the more 
successful projects we have going forward, and within that we 
would suggest an incremental approach to developing some of the 
high speed corridors that we will address--Detroit, Chicago, 
Florida, California--again, on an annualized capital basis. To 
get the single digit billions, we would have to be spending 
something like $400 million to $500 million a year to work 
through projects like that.
    So this, in a sense, what an ongoing annual capital program 
could well look like for us.
    [Slide shown.]
    Mr. Kummant. Here is again the snapshot we have chatted. I 
will just touch on this briefly because it is well understood. 
Our ongoing state of good repair backlog. We have worked it 
down since 2003 from about $2.2 billion to about $1.5 billion, 
and project that well below that number the next five years. 
So, again, that number we believe we can work down in the next 
10 years. The major legacy project backlog are these major 
bridges and tunnels. Here too, that is a rough estimate. It 
certainly can creep higher than that depending on how broadly 
that is defined. That is something we could envision working 
off over 15 years.
    [Slide shown.]
    Mr. Kummant. Here is really an example of a five year 
engineering plan for us. The only point I would want to make 
here is it is certainly within the constraints that we have 
basically worked in over the last five years, something between 
the $400 million and $600 million a year range. This also 
includes sources of funding from other areas. But it gives you 
a sense, again, of the type of level we have been working with 
that would obviously have to be significantly increased to 
begin working off some of the larger projects, as well as 
working on transformational corridors elsewhere. A point to 
make here is the FRA works very closely with us on this. They 
approve and vet projects. They work through at a very detailed 
level.
    [Slide shown.]
    Mr. Kummant. Here is an eye chart, only for the point, in 
terms of the level of detail that we interact with the FRA, and 
they work with us on all of our capital programs.
    [Slide shown.]
    Mr. Kummant. Good example here, Thames River Bridge, which 
is in progress, built in 1919; major structure, Amtrak 
property.
    [Slide shown.]
    Mr. Kummant. We are replacing that today to a tune of 
almost $80 million.
    [Slide shown.]
    Mr. Kummant. Here is a classic kind of example of a project 
we work every year, every month, which is changing out a 
turnout, going from wood ties to concrete ties. Again, that is 
the sort of thing that allows us to gain velocity and 
reliability.
    Another classic problem, we have to upgrade all of our 
signaling. Here is an example of a signaling box with a huge 
spaghetti of wiring before.
    [Slide shown.]
    Mr. Kummant. Here it is after, with programmable logic 
controllers. And this is even not the final point you would get 
to with a pure solid state, but it gives you an example of how 
complicated some of these things are to get done.
    Trip time reduction was also touched on; I won't hit this 
too hard. But in order to get, say, another 15 minutes from 
Washington to New York, all the types of things we need to do, 
that alone would cost us about $600 million, the 625. And to 
get beyond that, as you see in the second bullet point, to get 
down to 2:20 transit time, there you have to start addressing 
the major legacy projects.
    [Slide shown.]
    Mr. Kummant. Corridor development, I will just touch on 
this briefly. Fundamentally, again, we are restructuring our 
organization to pivot toward the States, to work with the 
States. This is all very closely integrated with the States and 
the freight lines to continue driving these projects. Here 
again are examples you well know, our six top corridors: 
California certainly well represented; the Keystone was brought 
up as a great example, we split that capital 50/50 with 
Pennsylvania.
    [Slide shown.]
    Mr. Kummant. Here is a snapshot of the San Joaquin train 
and Merced.
    [Slide shown.]
    Mr. Kummant. Here, as we go forward, this is the type of 
detail we work through with the States. The Chicago-Milwaukee. 
The Hiawathas are a great program. The State is very interested 
in extending that to Madison. That is the type of project we 
are working through with them; what funding do you need, how do 
you upgrade the line, where does that capital come from. And 
that is, again, the type of project we would expect our 
corridor program capital to flow into.
    [Slide shown.]
    Mr. Kummant. The Cascades are a great example of a project 
that has worked well. There, the UP and BNSF have worked with 
the two States to drive that business. There are many more 
projects identified where, again, we want to partner with the 
States and the railroad to keep expanding that capacity as well 
as increasing the velocity of those routes.
    [Slide shown.]
    Mr. Kummant. Here are examples of working with the States 
where we have expanded those corridors. California, for 
example, has themselves invested a tremendous amount of money 
since 1990, and we have helped out there. The other 
expenditures have generally flowed from the States, so the 
States have been very involved there with a lot of our 
engineering and operational help.
    [Slide shown.]
    Mr. Kummant. You know the map well, and we see those issues 
really across the map.
    [Slide shown.]
    Mr. Kummant. Closely linked, obviously, to corridor 
development is how do we work going forward with the States on 
expanding capacity wherever the freights have bottlenecks that 
we run on. We have processes running. For example, we have a 
fairly robust dialog going with CSX today on the southeast 
portion of our corridors, but all along we are identifying with 
the freight railroads where the key constraints are, and that 
is where we really believe we can apply either State-Federal 
capital matching grants or Amtrak money to work with the 
railroads to expand capacity.
    [Slide shown.]
    Mr. Kummant. Chicago, the Porter, Indiana piece is well 
known as a bottleneck to get either from Chicago to Detroit or 
Chicago across east in order for our capital service to work 
effectively. So we do have a very good sense of where these are 
and continue working with the freight railroads.
    [Slide shown.]
    Mr. Kummant. Here is a more detailed piece. We break these 
down in individual projects, and all these are projects 
ongoing, in discussions with the States, and forward-looking 
plans to say where can we continue working on the system.
    [Slide shown.]
    Mr. Kummant. Here again, Joe Boardman, at the FRA, has done 
a very thoughtful job in really working on the lower eastern 
seaboard here and has a website up that articulates a lot of 
these issues, and this is CSX. In fact it will be sitting down 
with us in the next few months with their plan to address a 
number of these that have been highlighted.
    [Slide shown.]
    Mr. Kummant. Just to bring up the point, as well, our 
facilities always need attention. Equipment maintenance shops. 
Stations are a complicated issue; 525 total stations. We only 
outright own 46 of them, but we are responsible for the 
maintenance and platforms of a great deal more. Dispatch 
centers are also something we have to maintain and continually 
upgrade and modernize.
    [Slide shown.]
    Mr. Kummant. Again, to give you a sense, it is about $2 
billion in structures and facilities. You would typically want 
to spend something around a depreciation/amortization rate, 
perhaps 5 percent of that value. We have certainly been 
spending less than that. So that does represent an issue we 
need to continue addressing.
    [Slide shown.]
    Mr. Kummant. I definitely want to spend time on equipment. 
Our equipment is aging. We range probably from 15 to even 50 
years. We have some snapshots here, some diner cars that were 
actually built in the 1950s, that we will show you.
    [Slide shown.]
    Mr. Kummant. We do a good job of maintaining them, but 
there is a point where, when you run them as hard as we do--and 
here are some comparisons of how we run our equipment relative 
to other services--you will see that our locomotives get a much 
higher annual mileage than anybody else out there. To some 
degree, you wonder how can that be. If you look at the 
commuters, a great deal of their traffic and their equipment is 
needed for peak loading, so they will have a great deal of 
equipment running at peak, but then not being used in off-peak. 
We run much more 24/7.
    The same thing you might ask about freight railroads. How 
is it that a freight railroad, particularly with their long 
stretches, can actually run less miles on their locomotives 
than we do. That is because most freight guys will tell you 
that their locomotives, in very crude terms, spend almost half 
their time idling because they are waiting in yards. It is a 
very different type of service. So we really run our equipment.
    [Slide shown.]
    Mr. Kummant. Same thing is true for our electric 
locomotives. And this, again, is in contrast to the commuters, 
where we basically run the same number of units out there most 
of the time, as opposed to having a much different peak 
loading.
    [Slide shown.]
    Mr. Kummant. And on car miles the same thing, we are the 
highest in any U.S. passenger service. So if anybody questions 
whether or not we are really using our equipment, we certainly 
are.
    [Slide shown.]
    Mr. Kummant. Here is again an example a diner built by the 
Budd Company, and we have some out there, again, that were 
built in 1950 and 1951 as well. We rebuild those, we refurbish 
those, but there comes an end point. They become difficult to 
maintain; they are not modular. Every one is different; every 
one is a one-off. It becomes difficult to turn the equipment 
and difficult to maintain the equipment.
    [Slide shown.]
    Mr. Kummant. Again, here is another snapshot. Average 
commuter rail industry, age of equipment, 18 years. Our 
passenger cars are about 23 years, on average.
    [Slide shown.]
    Mr. Kummant. Very round numbers, again. And this is not to 
scare people, but the facts are we do need to launch a new 
equipment procurement cycle. These are very rough numbers, 
obviously. If you were to replace everything we have, the 1500 
passenger cars and locomotives, that would perhaps be a $6.5 
billion price tag. Now, that does not at all include what you 
do with purchasing efficiency, so we don't really know what 
that number is. But if you did that over 15 years or so, that 
would accrue to about a $400 million plus a year sort of 
number. So just to ballpark that for you.
    [Slide shown.]
    Mr. Kummant. In summary, you might ask, okay, what do you 
want, what kind of projects particularly for the railroad we 
run today. Again, I would stipulate we would be very 
enthusiastic about major high speed corridors. Today, our 
reality is the system we run today and what do we need. We do 
need to find way for more capacity through New York City. In a 
broad sense, that is the largest constraint on the Northeast 
Corridor. We will continue to work the trip time reduction 
efforts that were referenced earlier.
    [Slide shown.]
    Mr. Kummant. The Acela today is a very good story in terms 
of how we run the business as it is. Yes, there are some legacy 
issues with design. We have overcome most of those. In June we 
ran 90 percent on time; ridership is up 20 percent. That is a 
good news story. As much as anything, what we would like to be 
able to do is actually expand those train sets from 6 cars to 
more cars. That is actually very difficult to do from an 
engineering point of view. That would certainly give us more 
capacity. Today, I think, as you all well know, if you travel, 
it is actually tough to get a ticket on a Thursday or a Friday 
in peak hours.
    [Slide shown.]
    Mr. Kummant. As we have referenced, overall, we need to 
begin a new cycle of equipment procurement.
    Then, when we talk about high speed corridors, what we 
would like to suggest is really an incremental approach. For 
example, I very much like the Chicago-Detroit example. We own a 
good piece of that track, I believe 96 miles in Michigan. If we 
could get across Indiana, which is very constrained, and then 
use the CREATE project to drive speed into Chicago, it would 
cost maybe another $80 million to really drive velocity into 
Michigan. You could very reasonably, for probably less than $1 
billion, have 80 to 100 mile an hour service between Chicago 
and Detroit, which, again, I would favor as a terrific first 
step.
    You alluded to the political lift of $30 billion. We would 
applaud, like anybody else, if that were possible, but I think 
we can build service and constituency with 80 to 100 mile an 
hour service.
    We would say the same thing on the West Coast in terms of 
L.A. to Oakland I think there are those opportunities; south of 
Washington; and then, of course, within Florida. I believe 
meeting with FDOT here over the next couple of months. So it is 
key to us, in terms of a national perception of Amtrak as well, 
to really develop a significant corridor outside of the eastern 
seaboard.
    And finally, of course, as we alluded to, reducing the 
capital backlog on the Northeast Corridor.
    In terms of key policy, I think the one thought I would 
like to leave you with in terms of questions how do we reduce 
the backlog more quickly, how do we get more effective, it is 
really a multi-year funding horizon, so we can plan our 
organization more effectively, so we can plan our capital 
programs more effectively. One of the answers would be, well, 
if we just had more capital, we could work the backlog off more 
quickly. There is some truth to that, but it is not the whole 
story. We can't plan our workforce, we can't plan projects, we 
can't plan the organization unless we have a longer trajectory 
to be able to manage major capital projects.
    Again, finally, I think there are a lot of thoughts and 
good thought about matching State-Federal capital programs in 
order to continue developing corridors.
    So, with that, I will leave it and be happy to answer any 
of your questions.
    If I may also, I would like to introduce Frank Vacca, who 
is behind me on one side, who is our Chief Engineer, and on 
more detailed questions I won't be at all shy in leaning back 
to him and asking his advice if it is a detailed question I 
don't know the answer to. But I would be happy to answer 
anything you have.
    Ms. Brown of Florida. Thank you for your presentation; it 
was very thorough.
    I am going to go to Mr. Nadler first, because he has 
another appointment at 11.
    Mr. Nadler. Thank you, Madam Chairman. I appreciate the 
indulgence.
    Mr. Kummant, your written testimony states it would cost 
approximately $10 billion, not including real estate costs, to 
convert the Northeast Corridor to a dedicated high speed TGV-
type rail line.
    If there were funding and if that kind of plan were to move 
forward, how would the existing non-high speed rail traffic be 
affected by the high speed rail traffic, and how would this 
affect the ability of Amtrak to run high speed rail trains 
along the corridor generally?
    Mr. Kummant. Well, it would be a vast project. I was asked 
to present that number simply as, look, what might the number 
be. And again I would stress that is without real estate. I 
would actually venture to say it would be such a daunting task 
from an engineering and, frankly, from a traffic management 
point of view, that I am not saying it is impossible, but it 
would be very, very difficult. Again, I come back to the eight 
commuter agencies that run on that network today; 750,000 
commuters are on the Northeast Corridor every day. That would 
have to be an entirely separate system. So I would simply say 
it would be a vast, vast engineering, capital management, and 
even governmental governance effort.
    Mr. Nadler. And you would probably have to get the freight 
off the Northeast Corridor.
    Mr. Kummant. Probably, yes. I mean, the 50 freight trains a 
day, obviously that could not function unless it were 
completely separated out. So it would be a vast undertaking.
    Mr. Nadler. Let me ask you one other question. You stated 
New York City Penn State, New York is the biggest bottleneck in 
the system.
    Mr. Kummant. Yes.
    Mr. Nadler. We are building a new tunnel into Penn Station, 
the so-called ARC tunnel----
    Mr. Kummant. That is right.
    Mr. Nadler.--which is no longer called that, now it is the 
New York-New Jersey Tunnel.
    Mr. Kummant. That is right.
    Mr. Nadler. How will that affect this, if at all?
    Mr. Kummant. Well, my understanding--and I will look behind 
me to see if I am saying anything incorrect--is we are not 
actually, at this point, have any guaranteed slots in that 
capacity, so that is essentially a----
    Mr. Nadler. But it will certainly free up slots in any 
event.
    Mr. Kummant. Well, it doesn't necessarily free up slots for 
Amtrak, and that is projected as growth basically for New 
Jersey transit. Let me glance back if I am saying anything 
wrong. So that capacity does not really accrue to what I would 
call the through capacity, if you are thinking in terms of 
Boston to D.C. So that is really a New Jersey transit issue.
    Now, I would love to say if they have extra slots, could we 
find a way to contribute capital and have some of those slots 
accrue to Amtrak. I am not trying to be politically 
inflammatory at all, but that is really one of the last 
opportunities to truly generate capacity there.
    Mr. Nadler. Now, let me ask you one other question. I was 
intrigued by the first slide that you had, which said that the 
Acela was a 150 mile an hour train in the first line, the 
second line said it was 135 miles an hour.
    Mr. Kummant. Oh, forgive me. It is capable of 150, and it 
reaches that in Rhode Island-Connecticut. It only peaks at 135 
south of there.
    Mr. Nadler. Now, you developed two proposals for decreasing 
the trip time from Washington to New York. Current time is 2 
hours 45 minutes. You propose spending about $625 million to 
reduce that all the way down to 2 hours and 30 minutes. That 
level of funding would allow Amtrak to upgrade tracks from 135 
to 150 miles between New York and Washington, modify equipment 
and improve onboard cab signals and constant tension catenary.
    The second proposal is for $10 billion, which would reduce 
the Acela trip time just 10 more minutes, to 2 hours 20 
minutes. There is a big difference between $625 million and $10 
billion.
    Mr. Kummant. Yes, there is.
    Mr. Nadler. How did you arrive at that $10 billion general 
forecast? And is that something Amtrak is considering 
requesting?
    Let me add one thing. Why the huge difference in cost for 
very small payout in 10 minutes?
    Mr. Kummant. No, we are not really suggesting, hey, please 
write us a check for that. That was in response to a question, 
what would it take. You bump into the major legacy capital 
issues, as was alluded to earlier. It becomes a tunnel issue; 
it is tunnels out of New York. I believe we have--and correct 
me if I am wrong--the full $6 million [subsequently edited to 
read: $6 billion] for the New York tunnel.
    If I could ask Frank Vacca to make a comment directly, if 
that is okay with the Committee.
    Mr. Nadler. Sure.
    Mr. Kummant. He is the expert.
    Mr. Vacca. The difference in the 10 minutes and the dollars 
is that for those additional 10 minutes, significant 
infrastructure projects, such as replacement of B&P tunnel 
and----
    Mr. Nadler. Which tunnel?
    Mr. Vacca. Baltimore and Potomac, the tunnel going into 
Baltimore, presently 30 miles an hour. In order to get that 
extra 10 minutes, you need to get the speeds up, change that 
tunnel and other tunnels in New York. So it is significant 
infrastructure improvements to get that additional 10 minutes.
    Mr. Kummant. I do think that number is a bit extravagant.
    Mr. Nadler. Let me just ask one thing in the eight seconds 
I have left. Ten billion dollars for 10 minutes, obviously you 
are not going to do. If you wanted to bring it down to under 
two hours, what would it cost, any idea?
    Mr. Kummant. Well, again, I mean, you are talking about 
complete grade separation, complete dedicated right-of-way, 
high speed. At that point I think you would--again, you are 
talking about a completely different structure.
    Mr. Nadler. So 2 hours 30 minutes is about the best we can 
hope for in the real world, in the foreseeable future.
    Mr. Kummant. With the railroad we have today. Again, if we 
look at dramatically different capital profiles and completely 
different structure, sure, it is possible to do something very 
different. But, fundamentally, to continue moving the railroad 
we have today to the next level, I think it would be well nigh 
impossible to get below two hours.
    Mr. Nadler. Thank you very much.
    Mr. Kummant. Thank you.
    Ms. Brown of Florida. Mr. Mica.
    Mr. Mica. Well, I will just continue with what Mr. Nadler 
was asking. First of all, Mr. Nadler, if you look at this, 
there are, what, 1900 trains in the corridor a day. Seventeen 
hundred of those are mostly commuter service. You pointed out a 
very good observation, that for $10 billion, when they complete 
the project, it is going to take--to do the catenary, it is 
about $600 million, $700 million. That gets you a few more 
minutes. You have to do the tunnels and bridges at some point. 
That gets you a few more minutes. But when you get through, the 
fact is, even if we spend $11 billion, ballpark figures, in the 
Northeast Corridor, you still have about less than 97 miles per 
hour average speed. High speed rail is 125 to 150.
    We have plenty of projects. We have done then for 15 years 
on the Committee. At Newark we elevated and put in the 
monorail. It costs you between $50 million and $100 million a 
mile to elevate track. I am estimating it is going to take $100 
million a mile. And if you extrapolate that out, we have got 
225 miles, we are looking at $22 billion to do it. That is not 
that much today. We will probably spend between $10 billion and 
$13 billion to move around some runways at O'Hare Airport. But 
if we are going to spend $10 billion or $11 billion, we have 
got a 97 mile an hour thing. People aren't going to use it to 
the degree we need.
    Then the other thing is once we elevate it, we pay the $100 
million a mile and I think the $10 billion in the bridges and 
tunnels is a low-ball figure. Some of those bridges and 
tunnels, as you saw, are decades and decades old, hundred-year-
old structures. I have been up in your area; we could spend 
that easily. But you make that investment, we design where we 
want those stops to be intermodal to airports and to other 
transportation systems so you get the best utilization. I have 
no more capacity at New York airports. I have been to JFK, I 
have been to LaGuardia, I have been to Newark and traveled all 
around those. We have no more capacity. We could move the New 
Jersey Turnpike----
    Mr. Nadler. Would the gentleman yield for a second? Would 
the gentleman yield for a second?
    Mr. Mica. Moving the New Jersey Turnpike was one 
consideration we looked at. You can't do that. But I am telling 
you that we could invest in this, and the cash return--think 
about this too. The staff told me it takes $50 million worth of 
revenue to support $1 billion in bonds. You can get up to 24 to 
36 million passengers. Right now they have got 9.4 million 
passengers in the high speed----
    Mr. Nadler. Would the gentleman yield for a moment?
    Mr. Mica. Yes.
    Mr. Nadler. Far be it from me to ever suggest that we 
shouldn't spend huge investments in rail infrastructure, 
period, as you are saying. I would simply suggest that perhaps 
a better way of analyzing this, rather than looking and saying, 
well, you have got 97 miles per hour here; a high speed rail is 
defined by somebody as 125 to 150. Those are artificial 
categories. I think maybe what might be a better way of looking 
at it is to say what level of speed, what level of investment 
would really take most of the passengers off short line, that 
is to say, New York to Washington, let's say, air traffic. 
There really shouldn't be air traffic under 400 miles in this 
Country.
    Mr. Mica. Exactly.
    Mr. Nadler. In terms of global warming, in terms of the 
atmosphere, in terms of just----
    Right, now, when I go from my home down here, I take Amtrak 
normally. It takes me about four hours door-to-door. If I took 
the Delta shuttle or the U.S. Air shuttle--not to give any 
advantage here--it would take me about one hour less.
    Now, how much would it cost to get it so there is 
essentially no difference?
    I yield back.
    Mr. Mica. Yes, but once you get the $12 billion, you have 
got to make a major investment for separation.
    Mr. Nadler. Agreed.
    Mr. Mica. Then the question becomes do I use steel wheel or 
do I use maglev technology. And once you elevate it, you can 
put one of those.
    The other thing, too, for you, Jerry, and others in the 
Northeast Corridor, Amtrak is only running 200 trains, 157 a 
day. There are 1700 other commuter trains that you can free up. 
We have talked about freight and the need to move freight in 
that corridor. What you do is you take an asset and maximize 
it.
    See, from the private sector, you would have somebody do an 
asset investment study to realize what the best potential is. 
But I guarantee just on the cash flow, which I started talking 
about, from 9.4 million passengers to 24 to 36 million 
passengers, the private sector will come in and finance this in 
a heart beat because of the revenue; it is a nonstop source of 
cash, it is a cash register that never stops. Tangentially, I 
get better commuter service and free that up, because most of 
that is dictated now by 200 trains; I get better freight 
service and move freight along; and I get an incredible benefit 
by our airports. There is no place else to expand.
    But if I can get on down here at Union Station and be in 
Downtown New York in less than an hour and a half, I am telling 
you they will be lined up from here to Union Station to get on 
the thing; and that can happen. The thing that you have got to 
do and the unions have got to do and other people on the other 
side is think in a bigger picture. Then we free up that 
corridor, we have the first high speed rail corridor in the 
United States, and the private sector will finance this.
    If you think Congress is going to finance it all, you are 
wrong; and they don't need to. I would say that we should put 
in 30 percent, maybe 40 percent of the capital needs, maybe 50 
percent, like we do for other transit projects; and I don't 
have a problem with that. The rest is easily obtainable.
    But he has testified that he cannot develop and operate 
that kind of a system, is that correct?
    Ms. Brown of Florida. Mr. Mica.
    Mr. Mica. That was my question, one question.
    Ms. Brown of Florida. Okay, good. Mr. Mica, I am trying to 
get to the question. What is your question?
    Mr. Mica. Can you develop a $32 billion high speed project 
and operate it?
    Mr. Kummant. I would say it would be very, very difficult. 
I think in the end we could probably operate it, but to manage 
the entire capital project is something outside of the scope 
that we have ever done, no question.
    Mr. Mica. But what you would do is have professionals come 
in, write the specs.
    Mr. Kummant. Sure.
    Mr. Mica. We would entertain bids who could do it for what 
it costs, and then operationally we could do that. And also, I 
think, protect labor.
    And let me say something about labor. I have been here for 
26,000, maybe 28,000 down to what have you got, 19,000 
employees now? Just hang around and you will see the base 
continue to shrink of employment, when it can do just the 
opposite. We would be hiring twice as many people, not to talk 
about the tangential benefits of creating a system. And this is 
a model system which could be replicated in other corridors.
    Thank you. Appreciate your cooperation.
    Ms. Brown of Florida. Mr. Mica, are you finished with your 
questioning?
    [Laughter.]
    Mr. Mica. Yes, that is good enough.
    Ms. Brown of Florida. Okay.
    [Laughter.]
    Ms. Brown of Florida. I do have a follow-up question. As I 
said before, in the 2005 Amtrak completion aid comprehensive 
catalog of its capital needs, entitled Engineering State of 
Good Repair, I would like to know what is the definition of 
good repair. And the estimate for the Northeast Corridor at 
that time was $2.5 billion. I understand it has gone down. And 
I recently took the train from Washington to New York, and the 
Baltimore area, in the tunnel, that area clearly needs some 
work. So can you expand on that?
    Mr. Kummant. Sure. First, let me say we have worked down 
that number from $2.2 to about $1.5 billion, and there are 
fundamental engineering standards, particularly when we look 
at, again, constant tension catenary, signaling cable is 
something that gets changed out, and the tunnels themselves in 
Baltimore are clearly sort of a separate issue because of the 
curvature and because of the narrowness and the whole track 
structure there. We drop down to, I believe, 30 miles an hour, 
so that reduces a lot of the ability to get through there 
quickly.
    So, again, there are pretty well defined engineering 
standards to bring the whole system up to what we run farther 
north toward to New York, as well as when we hit 150 miles an 
hour in Rhode Island and Connecticut. But that 1.5 is 
something, again, we think we can work down in 10 years, and 
then we would estimate with the other major structures about 
another $3-plus billion to work off those structures. That 
would include the billion for the Baltimore Tunnel.
    And, again, there, the real question is what do I get for 
that. You do get time, you do get reliability, but the tradeoff 
is we are effectively rebuilding all of this as we go, but we 
do it slowly, we give up all kinds of track time to maintenance 
time, as opposed to train time, and we do it expensively, 
because it is not planned out in long, well managed projects. 
So in a sense we are, on a continuing basis, renewing all of 
this, but it is done, for example, on a bridge. You will have 
an issue on a bridge, so you will have to work on weekends, 
shut that piece down, engineer fixes to a piece of a bridge as 
opposed to replacing the whole bridge, and then you do that for 
10 years or so. So that is the real difference of what you get 
with a major capital program.
    Ms. Brown of Florida. Well, the only one problem I think we 
have is that we really do not have 10 years. So, you know, it 
is a lot of pressure as far as the price of gas, congestion. I 
mean, we don't have 10 years.
    Mr. Kummant. Well, the response there would be it is 
capital, it is annual capital, but it is also that we can have 
a multi-year funding look, because without being able to look 
out five years and plan projects out, the other thing we 
haven't really mentioned here is workforce management. How do 
you really staff up, how do you put crews in place to say we 
are going to have this crew here for two and a half years. 
Today, that is very difficult to manage on our annual 
appropriation cycle. So it is not just having the capital to do 
it faster, but it is giving us, in some sort of an 
authorization or appropriation structure, a multi-year look so 
we can really manage all of our processes across that period of 
time and not stop and start every year. That is the other 
piece, besides just capital, to get it done more quickly.
    Ms. Brown of Florida. Mr. Shuster?
    Mr. Shuster. Thank you.
    I think Mr. Mica hit the nail on the head. We really need a 
big picture view of this. The hearing today is on capital needs 
and the programs, and we are talking about equipment and 
upgrading track. We are also mixing in TGV or high speed rail, 
maglev. What we really need--and I know years ago there were 
studies done on what it would cost to put high speed in the 
Northeast Corridor. Again, we manage this, as you said, year-
to-year, year to five years out. What we really need is a study 
done in a timely manner. I don't mean a study that is going to 
take three years or five years, but something in the next 6 to 
18 months. And I am asking do you agree with that. Is that the 
way we really should be looking in this Committee to figure out 
the big picture?
    Mr. Kummant. I do agree with that, and we are really 
beginning to reach out, and let me very honestly say we have 
not been configured, nor have we been focused on that 
challenge. I mean, I think we would be the first to admit that, 
given the work that has been done on cost reduction and really 
more on contraction. But we, with our planning group, need to 
reach out particularly to the thoughtful high speed programs 
around the Country. Florida has a well developed group, Texas, 
California, the Midwest High Speed Initiative. We need to take 
that body of work that has been done and really create an 
umbrella for that and then, as well, look at what really could 
be done in the Northeast Corridor realistically.
    So I do agree we need to take that look and we need a 
thoughtful planning process there.
    Mr. Shuster. But you are saying, and I think from what I 
could see, Amtrak is really not equipped. I mean, you could 
have input, but you don't have the manpower to be able to 
really put that study together. Should we be going outside to 
the outside two companies, two groups that have a competition 
to choose two groups to say, okay, you two study the corridor 
and you two come with your two studies as to what is the best--
--
    Mr. Kummant. I would say we are equipped to manage it, but 
you are quite right, we are not equipped to do it internally. 
But I think they would need our knowledge base and our guidance 
in terms of the existing challenges in order to be able to 
study and say here is the next step you could take or here are 
the next steps you could take. So we are equipped to manage it; 
we certainly are not equipped internally to do that study 
ourselves.
    Mr. Shuster. What about the idea that I just put forward?
    Mr. Kummant. No, I think----
    Mr. Shuster. Take two consulting companies and say go at 
it.
    Mr. Kummant. No, I think that is very reasonable. I think 
we could get an RFP out for that type of effort and get that 
done. That is realistic, certainly.
    Mr. Shuster. And you think two private sector companies are 
enough?
    Mr. Kummant. Well, we would probably put an RFP out and see 
who responds. I am sure more than two would respond would be my 
guess.
    Mr. Shuster. And I would guess, when you put it out, that 
hopefully 50 companies. But, at the end, a minimum of two 
different competing studies.
    Mr. Kummant. That is right. You would probably get four or 
five serious bids, serious offers. I mean, that expertise is 
out there, certainly.
    Mr. Shuster. And picking two would be the way to go?
    Mr. Kummant. Well, it is a thought. I mean, I think if you 
put a thoughtful RFP together, you can narrow that down and 
come down to two finalists, but in the end only have one of 
them do the work. But they will be kept honest by the fact if 
they go off track, so to speak, we would certainly reach out to 
the other organization. But those skills are out there.
    Mr. Shuster. And is your view--I think I heard you say 
this, what Mr. Mica was getting at--was that the long-term 
answer--going blindly at it, because we haven't had anybody 
really look at it, study it recently--is to go to maglev?
    Mr. Kummant. Yes. I can't exclusively say that. I do think 
a TGV steel wheel approach certainly makes sense. Maglev, I am 
not sure there is a lot of history yet on maintenance costs. 
One of the things I think we would want to go out and really 
look at sustainability, maintainability. I would hesitate to 
shoot from the hip here and say that I can guess at the 
technical solution. I just think we would want to be careful. 
And by the time we would implement, there would actually be a 
lot of history in place already to make that right choice.
    Mr. Shuster. I yield back. Thank you.
    Ms. Brown of Florida. I don't know that we want to go to 
maglev. I think that we would want to just look at all of the 
systems and give people an opportunity to--various people. I 
don't think we want to sit here and negotiate what kind of 
study and what kind of design and what is the best system that 
we want. We are looking at all systems and we have had 
presentations from various systems, and we want to continue to 
study it and look at it and see what is best for our particular 
needs here in the United States in the areas that we are 
looking at.
    I will now turn it over to Mr. Oberstar for his questions.
    Okay, Mrs. Napolitano, then.
    Mrs. Napolitano. Thank you, Madam Chair, and thank you, Mr. 
Chairman. I appreciate that.
    Listening with great interest to your report, and as I look 
at the map provided to us in your testimony, the Amtrak is 
wonderful on the eastern part of the United States, and the 
western part is like a skeleton. I am wondering what future 
plans does Amtrak have, since California has provided some of 
the State bonding money to be able to promote the usage and lay 
some of the groundwork. That is one question.
    The other is the age of your locomotives, since I have 
great concern about the effect on the environment the engines 
have, especially the old engines. And then I go on to the life. 
Interestingly enough, in one of the briefings, the rail life of 
the rail itself is about 50 years, and you are going to cement 
ties, replacing wood, which is something the railroads are 
doing; and I am concerned about the life of cement, since it 
does crack eventually and because of the vibrations that could 
conceivably create more problems for infrastructure repair, 
and, of course, the life of the rails. Have you assessed the 
age of your system and what it would take to bring it up to 
date, since sometimes that creates problems for issues, 
derailments, things of that nature?
    Those are just a couple of questions. I have more that I 
would like to bring up if I have the time.
    Mr. Kummant. Well, I will start with the first one. First, 
again, California has done an incredible job You have spent 
$1.8 billion, $1.9 billion of State money since 1990. When I go 
through my list of where I think, I would call them sort of 
transformational opportunities to take the first step toward 
high speed, you have a great high speed group in your State. I 
certainly would love an approach to see could we go from L.A. 
to Oakland at, say, 100 miles an hour, not necessarily 180 
miles an hour, and work on a new right-of-way through the 
Tehachapi.
    So you take an intermediate step, you work with perhaps a 
BNSF and work in conjunction with them to take an intermediate 
step. That would be similar to the approach I would suggest 
between Chicago and Detroit. And at that point you develop 
experience, constituency, operating knowledge, and then you 
say, hey, now we are prepared to really look at a true high 
speed approach, and a political lift for the big capital 
dollars are perhaps more feasible.
    The issue of Amtrak on the east coast is of course a 
historical phenomenon. We own that track, so that is simply 
what we inherited in the early 1970s. Had we inherited a major 
corridor in the west, you know, I think the history probably 
would look a bit different. But I do think that going over the 
Tehachapi and up to Central Valley, and even affording people 
an alternative to ride on a train for a little bit over five 
hours, as opposed to driving, I think would be very well 
received.
    Mrs. Napolitano. Well, we are running out of time.
    Mr. Kummant. I am sorry. The rail question, real quickly, 
we have very well developed engineering standards and our own 
property. I am certainly very comfortable with the concrete 
technology; that is very well vetted and tested by the whole 
rail industry. So we are comfortable with that. It is also used 
by the Europeans on high speed systems.
    And on the engine front, yes, we do need a program to buy 
new engines, and the emissions there is not really a 
substantially different issue than anybody else has, and 
certainly our fleet is very small compared to other issues out 
there. But in the general realm of maintainability and 
reliability, we do need a procurement program there as well.
    Mrs. Napolitano. Okay. In California, again, going back to 
California, Amtrak has 174 stations. Only four are in Los 
Angeles County, which bears a third of the State's population. 
Are there any plans for expansion to be able to move those 
masses, as you say, up into either the Oakland area, San Diego 
area?
    Mr. Kummant. Well, yes. Again, I think we work with the 
State DOT very well and partner with them on any projects that 
they----
    Mrs. Napolitano. Do you have any in the books, though? Are 
you working on something currently?
    Mr. Kummant. We are working on more frequencies and we have 
a constant discussion about that. There is certainly not an 
effort right now for a brand new corridor. I would certainly 
love to see that. Like I said, looking at L.A. to Oakland at a 
much more high speed approach would be where I would love to 
go.
    Mrs. Napolitano. Okay, because you did talk about that 
before. The Alameda corridor east in my area is going to 
increase tenfold within the next 10, 15 years for moving goods 
and product to the rest of the United States. Is Amtrak at all 
involved in being able to help ameliorate? Because I know at 
the Colton Crossing there is a very poor on-time performance, 
probably caused by this issue of the goods movement. But it is 
going to get worse.
    Mr. Kummant. That is right. Well, that is where I suggest 
that if we have a pool of capital that we can work with the 
freight railroads to identify those bottlenecks, we can help in 
that process. Clearly, we have ongoing discussions with UP; we 
have a new six-year deal, we are working off slow orders with 
them. CXS is going to present to us their plan for mitigating 
bottlenecks on I-95. That is a process we need to drive and 
continue, you are exactly right. There are no easy answers to 
that, that is grinding it out issue by issue. But it is capital 
availability and I do think we need to partner with the freight 
railroads to really work on de-bottlenecking. The big issue, of 
course, UP has, they are still in the process of double 
tracking the whole route.
    Mrs. Napolitano. Double tracking? I thought it was triple 
tracking.
    Mr. Kummant. Well, no. Across the south, across Arizona and 
New Mexico there are still areas of single track there that 
they are working on double tracking. Their central corridor is 
triple tracked.
    Mrs. Napolitano. I would like to submit some more questions 
for the record, Madam Chair. Thank you for your courtesy.
    Ms. Brown of Florida. Thank you.
    There has been a lot of discussion today about speed, but 
being reliable is crucial. I think the Chinese, when they came 
and testified, said that the most they have been late was six 
seconds. I mean, that was very, very impressive to me. But, of 
course, the planes have problems. I experienced it all day 
yesterday in Jacksonville, waiting because of various 
conditions.
    So, in your summary, as you think through it, because we do 
have votes around 11:30 and we are going to hear from the 
Chairman, I would like to know what do you think we can do as 
far as improving reliability of the system. Also, the Senate 
recently reported from Committee its reauthorization proposal, 
Senate 294. I would like to know what do you think of the 
Senate proposal.
    Go ahead.
    Mr. Kummant. Excuse me. If I may respond to that. 
Reliability, again, fundamentally, state of good repair is 
about reliability. We have seen delay minutes drop every year. 
I believe our unplanned delay minutes are down 40 percent. The 
other piece is also the new equipment procurement. There are 
always things that happen with older cars, freezing up of 
systems in the winter, so really new capital procurement of 
cars is a big issue on reliability.
    S.294, fundamentally, what we like to see is, like I said, 
that there is a multi-year funding horizon that we can manage 
this appropriately like a business, looking out over four or 
five years in terms of what capital we have available and how 
to manage it. That is one of the biggest things for us. Also, 
the proposed State-Federal capital match again I think is 
something where we can develop corridors with the States in 
conjunction with the freight railroads. Those are the two 
biggest issues that we think are very positive for us.
    Ms. Brown of Florida. I think members of Congress are 
beginning to think that there is a problem with the structure 
of the board and the actual operation of Amtrak. I don't know 
whether or not you can give us an honest assessment, but we are 
really looking at that because we just don't think that, based 
on the last two or three executive directors, that the Board 
has been with the same vision as moving Amtrak that we in 
Congress feel it has to move.
    Mr. Kummant. Well, I will have to defer on that to the 
folks that have watched this for a lot of years. Obviously, I 
work for the board today, but--and let me say we have some very 
hard working board members. At a personal level, I think they 
are very committed. I think those of you who have been watching 
this structure for some time probably have a little bit more 
insight, looking from the outside in, than even I do at this 
point, after 10 months.
    Ms. Brown of Florida. Very good comment.
    Mr. Lincoln Diaz? No questions?
    Mr. Chairman?
    Mr. Oberstar. Mr. Kummant, I am pleased to finally have the 
capital investment needs proposal that we asked for in 
February. It took a very long time to develop that. My first 
reaction was, goodness, this is your 2005 plan. Then in our 
discussion yesterday you explained how that really is an up to 
date proposal. And I am very intrigued by the way you have laid 
this out. You have provided the capital investment needs sort 
of raw data and then a prioritization of how you would invest 
the funds, were they available to Amtrak.
    In looking at this plan, a few questions emerge. How long 
would it take to do the upgrade in the Baltimore Tunnel and the 
New York Tunnel? Those are major bottlenecks. If you had the 
money and you went out on the street, made the bids, how long a 
time frame are you looking at?
    Mr. Kummant. Well, I will very honestly look over my 
shoulder here at Frank Vacca; he is the expert.
    Mr. Oberstar. Mr. Vacca, please, take the table. Identify 
yourself for the record.
    Mr. Vacca. Frank Vacca, Chief Engineer of Amtrak. As you 
have indicated, those are major construction efforts and----
    Mr. Oberstar. Please lean into the microphone a little 
more.
    Mr. Vacca. These are major construction efforts and, 
generally speaking, between the design and construction phase 
of infrastructure improvements that are in the billion dollar 
range, it would take four to six years to complete.
    Mr. Oberstar. What has to be done in those tunnels? What 
are the engineering challenges?
    Mr. Vacca. On the Baltimore tunnels, we believe a totally 
new tunnel needs to be constructed, totally new alignment----
    Mr. Oberstar. You wouldn't just fix up the existing tunnel, 
just rebuild it entirely?
    Mr. Vacca. Yes, we believe. And we have worked with the FRA 
in some planning efforts. A completely new tunnel would be 
required. Right now it has a great many curves; 30 miles an 
hour is the maximum speed; built in the late 1800s. We need a 
new tunnel in and out of Baltimore.
    Mr. Oberstar. That makes good sense to me.
    Mr. Vacca. Thank you.
    Mr. Oberstar. I was thinking we are going to have to do 
this and the other thing in the tunnel, and we are going to 
shut down traffic and try to do it at night. I was looking at 
10 years. But building a new tunnel makes eminent good sense. 
Do it right, do it big, do it for the future, do it for the 
capacity needs in the corridor. And that would be a package 
Amtrak would own, right?
    Mr. Vacca. Yes.
    Mr. Oberstar. And in the New York area the same thing?
    Mr. Vacca. The existing tunnels, we have been completing 
the fire and life safety portion of the upgrades to those 
tunnels in the last four or five years and making great 
progress. By the end of 2008, all of the fire and life safety 
systems in all six tunnels will be to 21st century standards, 
which is a great progress that we have made with the help of 
Congress and the funding we have gotten.
    To increase capacity, we really need to work with New 
Jersey Transit on the new tunnel and get additional capacity in 
and out of Penn Station.
    Mr. Oberstar. I visited with New Jersey Transit just a 
couple of weeks ago, in fact, with our colleague, Mr. LoBiondo, 
and they are building two new tunnels. There is no more room 
above ground to get across the Hudson, and very limited space 
in which to build tunnels. So they are moving ahead with these 
two new tunnels, $6.5 billion cost.
    Mr. Vacca. Correct. As far as I know, they are moving ahead 
with two tunnels, one would be the 34th Street; the other one 
under design, one of the alternatives is to come into Penn 
Station, the other alternative is to bypass it, at this time.
    Mr. Oberstar. Would that tunnel construction benefit Amtrak 
as well?
    Mr. Vacca. We believe that if we were to connect the tunnel 
into Penn Station, that that would serve jointly for the region 
for Amtrak and New Jersey Transit to increase the capacity and 
our ability to get more throughput in New York, absolutely.
    Mr. Oberstar. I really admire what New Jersey has 
accomplished in transit. They really have achieved the goal of 
many European metropolitan areas of a 10 percent mode shift 
from the automobile to transit, and they are moving 800,000 
people a day. They are double-stacking, bought a whole new 
fleet of vehicles which are double-stacked with a lower truck 
and a higher elevation interior. Maybe one car less, but still 
carrying 1100 to 1400 passengers. Now, that is what we expect 
of Amtrak.
    I don't understand why Amtrak, in response to Mr. Mica's 
question earlier, why you say you don't think you would be able 
to undertake the upgrading if you were given the money.
    Mr. Kummant. Well, let me just say this. Any business I 
have been involved in, I am simply trying to be conservative by 
saying we are used to managing $200 million projects. Managing 
a $30 billion project is an entirely different animal. Do I say 
absolutely we couldn't do it? We could staff up, we could hire 
people. Yes, I mean, it is feasible. I am simply trying to be 
reasonable in terms of saying we could be part of a governance 
structure that manages that, but there would be significant 
outside skills that would be brought in to manage something of 
that magnitude.
    Mr. Oberstar. Well, what I am envisioning is not much 
different than the State Departments of Transportation building 
highways and bridges. They don't have construction companies. 
Minn-DOT, New York Department of Transportation doesn't have 
its own construction company; they put the project out for bid, 
companies that are experienced in the construction arena go out 
and bid the job, and then they do it and the DOT supervises it. 
Isn't that what Amtrak would do?
    Mr. Kummant. Yes. Again, I don't really think there is a 
lot of space between what you are saying and what I am saying. 
I am simply trying to say that it would be like a municipality. 
If you took the town I grew up of 15,000 people, if, all of a 
sudden, they were responsible for building the freeway across 
the State. I mean, they have the processes in place, but it is 
a question of scale. And there is also a great deal of advanced 
engineering that would occur in terms of systems and approaches 
that we normally don't deal with. So I am simply trying to 
suggest that if you wrote us a check today, if I were you, I 
would be very wary about the execution, and it would take us a 
lot of work to get the organization in place to even manage it. 
I am just trying to be conservative.
    Mr. Oberstar. Would you envision a design-build approach to 
construction of----
    Mr. Kummant. I mean, I will toss it to Frank here in a 
moment, but it would have to be something like that, I would 
imagine.
    Mr. Vacca. Well, of course, we would divide up the project 
that we could do some design-builds, we could do some designs 
and builds. I think the point that Mr. Kummant is making is 
that given time to staff up, given time to get the experts, and 
using the process you explained, eventually we certainly could 
manage that program, but it would take time to ramp up to that.
    Mr. Oberstar. Well, we are together of a like mind on this 
Committee, the Democratic and Republican side, to advance the 
cause of passenger rail. We have some differences on the 
structure within which it should occur, but I think that the 
objective is a unified objective, and the most effective means 
within which to achieve that goal is what we are deliberating.
    We also have to keep our eye on results, short-term results 
as well as long-term. We need some patient capital here, and 
that is where Government comes in. It can be more patient with 
capital investments than the private sector can be. These track 
upgrades that go from 135 to 150 miles an hour in the Northeast 
Corridor, equipment modifications, onboard cab signals, the 
catenaries in some places are over 100 years old. In this heat 
that we are experiencing today, those catenaries sag and a 
pantograph can get caught in it.
    What is the time frame within which you would envision 
making improvements, again, given availability of money?
    Mr. Kummant. Again, if you look at our projection over five 
years, we can work off more than half of the remaining state of 
good repair in that, and that would be covered by that.
    Frank, I will toss it to you in terms of the catenary 
question in particular.
    Mr. Vacca. In a five year period, we would replace those 
stretches on the southern end between New York and Washington 
with constant tension catenary, which would allow us to 
increase the speed to 150. During that same period you would 
complete the construction of our signal, the positive stop 
access system, which would also allow us to go to 150 miles an 
hour. Those are two key points to get to that 2 hours and 30 
minute time frame.
    Mr. Oberstar. There is more to pursue than we have time 
within which to do this, but I want to come to your midwest 
initiative. I know, Mr. Kummant, you are very strong on the 
Chicago-Detroit segment, but there is also the Chicago-
Milwaukee-Madison-Minneapolis-St. Paul segment there. What 
combination of Amtrak-State of Illinois, Wisconsin, Minnesota, 
or Michigan initiatives is necessary to put together the 
midwest rail initiative?
    Mr. Kummant. I think we are working all those. Obviously, 
the Wisconsin group is very strong and their DOT is very 
committed. We are working through the process on that line to 
Madison that they own. I think we are in the process of 
identifying what upgrades will be necessary. And then at this 
point it is also a capital discussion; where does the capital 
come from and how do we get the rolling stock for it is 
something that we are continuing to work through.
    Relative to the other direction, to Michigan, we don't have 
a formal process running there. That is my interest, because, 
again, the capital there is a little higher than we are used to 
as Amtrak. I would view that as transformational because it 
would be probably half to three-quarters of a billion dollars 
to fix the Indiana piece of that challenge. But that is 
something I want to pursue here in the next several years, 
working with both Illinois and Michigan, and obviously the 
Norfolk Southern in terms of suggesting that that would be 
really great for all parties. So I am still in the early 
missionary stage of that. I think the Chicago-Wisconsin piece 
is much further advanced in terms of dialogue.
    Mr. Oberstar. Well, I want you to be a vigorous missionary 
going forth, and I want to participate with you. Minnesota is 
on the verge of a great leap forward in rail transit, in 
commuter rail and city rail. The Hiawatha light rail project 
has exceeded its expectations by 10 months in ridership. There 
is a thirst for passenger rail service, and I want to launch 
this initiative and get it moving as quickly as we possibly 
can.
    I know we are under votes now, so I will relinquish my 
time.
    Ms. Brown of Florida. Thank you.
    Mr. Mica.
    Mr. Mica. Just for the record, again, if we spend $620 
million, that gets us approximately a 90 mile per hour 
operation. If we spend $7 billion to $10 billion additional 
dollars--I have seen two different figures--we get to 96.6 
miles. That is with the tunnels and the bridges. That is still 
not a high speed rail operation by any definition.
    The other thing, too, when you get through with this, you 
have got your traffic mixed with 1700 other commuters, freight 
and additional. I think what we probably need, if we are going 
to do the major infrastructure investment, is a major 
infrastructure investment study where we bring in the freight, 
we bring in the commuter service, and we bring in Amtrak, and 
then we figure out a master plan so that they can all operate; 
and that we have one corridor that is truly high speed, which I 
would say would be a minimum of 125 miles per hour. If we use 
maglev, it could be as much as 250, 300 miles per hour.
    So would you concur with those observations?
    Ms. Brown of Florida. Is that your question, Mr. Mica?
    Mr. Mica. Yes.
    Mr. Kummant. Oh, I don't disagree that, as you laid out the 
capital piece, we will not be at 120 miles an hour average 
speed. I don't disagree with----
    Mr. Mica. Because I don't want people to think, four years 
from now--the Chairman just left, but that he is going to end 
up with a high speed rail system. We basically are band-aiding. 
The tunnels are needed, blah, blah, blah. But we may even be 
making mistakes, because to run a separated, truly high speed 
corridor, they may need to be in a different configuration.
    Is that correct, Mr. Vacca?
    Mr. Vacca. That is correct.
    Mr. Mica. Okay.
    Ms. Brown of Florida. Okay, I do have a question. I have 
one question, and just take one minute to answer it. Can you 
give us a status report of the negotiations between Amtrak and 
the union?
    Mr. Kummant. Yes. This week we have had meetings with four 
different unions. I would say two of them are quite productive. 
We are going to be going, probably shortly, out back for a re-
vote on the FOP proposed settlement, and, again, two other 
unions we still hope to have fairly constructive conversations 
with this week. I would be happy to brief you in more detail 
any time you are available in a closed session and can give you 
a sense of where we are.
    Ms. Brown of Florida. Thank you. Thank you for that update 
and thank you for your testimony.
    Members have 14 days in order to ask additional questions, 
because I didn't get to all of my questions.
    But thank you very much for your testimony. We will be 
moving forward. You can see that there is a lot of support for 
Amtrak moving forward, but not a lot of patience for slow pace 
because of the pressures that we are receiving. Thank you very 
much.
    Mr. Kummant. Thank you.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 36687.010
    
    [GRAPHIC] [TIFF OMITTED] 36687.011
    
    [GRAPHIC] [TIFF OMITTED] 36687.012
    
    [GRAPHIC] [TIFF OMITTED] 36687.013
    
    [GRAPHIC] [TIFF OMITTED] 36687.014
    
    [GRAPHIC] [TIFF OMITTED] 36687.015
    
    [GRAPHIC] [TIFF OMITTED] 36687.016
    
    [GRAPHIC] [TIFF OMITTED] 36687.017
    
    [GRAPHIC] [TIFF OMITTED] 36687.018
    
    [GRAPHIC] [TIFF OMITTED] 36687.019
    
    [GRAPHIC] [TIFF OMITTED] 36687.020
    
    [GRAPHIC] [TIFF OMITTED] 36687.021
    
    [GRAPHIC] [TIFF OMITTED] 36687.022
    
    [GRAPHIC] [TIFF OMITTED] 36687.023
    
    [GRAPHIC] [TIFF OMITTED] 36687.024
    
    [GRAPHIC] [TIFF OMITTED] 36687.025
    
    [GRAPHIC] [TIFF OMITTED] 36687.026
    
    [GRAPHIC] [TIFF OMITTED] 36687.027
    
    [GRAPHIC] [TIFF OMITTED] 36687.028
    
    [GRAPHIC] [TIFF OMITTED] 36687.029
    
    [GRAPHIC] [TIFF OMITTED] 36687.030
    
    [GRAPHIC] [TIFF OMITTED] 36687.031
    
    [GRAPHIC] [TIFF OMITTED] 36687.032
    
    [GRAPHIC] [TIFF OMITTED] 36687.033
    
    [GRAPHIC] [TIFF OMITTED] 36687.034
    
    [GRAPHIC] [TIFF OMITTED] 36687.035
    
    [GRAPHIC] [TIFF OMITTED] 36687.036
    
    [GRAPHIC] [TIFF OMITTED] 36687.037
    
    [GRAPHIC] [TIFF OMITTED] 36687.038
    
    [GRAPHIC] [TIFF OMITTED] 36687.039
    
    [GRAPHIC] [TIFF OMITTED] 36687.040
    
    [GRAPHIC] [TIFF OMITTED] 36687.041
    
    [GRAPHIC] [TIFF OMITTED] 36687.042
    
    [GRAPHIC] [TIFF OMITTED] 36687.043
    
    [GRAPHIC] [TIFF OMITTED] 36687.044
    
    [GRAPHIC] [TIFF OMITTED] 36687.045
    
    [GRAPHIC] [TIFF OMITTED] 36687.046
    
    [GRAPHIC] [TIFF OMITTED] 36687.047
    
    [GRAPHIC] [TIFF OMITTED] 36687.048
    
    [GRAPHIC] [TIFF OMITTED] 36687.049
    
    [GRAPHIC] [TIFF OMITTED] 36687.050
    
    [GRAPHIC] [TIFF OMITTED] 36687.051
    
    [GRAPHIC] [TIFF OMITTED] 36687.052
    
    [GRAPHIC] [TIFF OMITTED] 36687.053
    
    [GRAPHIC] [TIFF OMITTED] 36687.054
    
    [GRAPHIC] [TIFF OMITTED] 36687.055
    
    [GRAPHIC] [TIFF OMITTED] 36687.056
    
    [GRAPHIC] [TIFF OMITTED] 36687.057
    
    [GRAPHIC] [TIFF OMITTED] 36687.058
    
    [GRAPHIC] [TIFF OMITTED] 36687.059
    
                                    

</pre></body></html>
